Miguel WOOTEN, Petitioner
v.
Warren MONTGOMERY, Warden
No. _____________
(Ninth Circuit Court of Appeals No. 18-16657)
Certificate of Service of Petition for Writ of Certiorari
I, Richard Such, counsel of record for petitioner Miguel Wooten, hereby certify
that, on this 21st day of September 2020, I caused a copy of the Petition for Writ of
Certiorari to be served on all parties required to be served by depositing the
document with the United States Postal Service, with first-class postage prepaid,
addressed to the counsel whose name, address, telephone number, and email
addresses are stated below. I also transmitted an electronic version of the
document to the same counsel at the email addresses at approximately the same
time that I filed it on the said date.
California Attorney General
Gregg E. Zywicke, Deputy Attorney General
Office of the Attorney General
455 Golden Gate Avenue, Suite 11000
San Francisco, CA 94102
(415) 703-5961
gregg.zywicke@doj.ca.gov
docketingsfawt@doj.ca.gov
sfagdocketing@doj.ca.gov
I further certify that all parties required to be served have been served.
/s/ Richard Such
_________________________
RICHARD SUCH
Counsel of Record for
Miguel Wooten
1120 College Ave.
Palo Alto, CA 94306
(650) 857-0129
wrichardsuch@gmail.com

